BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-534
THE EPISCOPAL CHURCH, ET AL.,

Petitioners,
V.

THE EPISCOPAL DIOCESE OF FORT WORTH, ET AL.,

Respondents.
As required by Supreme Court Rule 33.l(h), I
certify that the Amicus Curiae Brief for the Greek
Orthodox Archdiocese of America as Amicus Curiae in
Support of the Episcopal Church's Petition for Writ of
Certiorari contains 5,907 words, excluding the parts of
the Brief that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on November 18, 2020.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

1 8790 Governor's Hill Drive
1

Suite 102
Cincinnati, Ohio 45249

Franklin Square

1300 I Street, NW, Suite 400E
: Washington, DC 20005

'

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

